Audit Report




OIG-14-032
The Department of the Treasury Was Not in Compliance
With the Improper Payments Elimination and Recovery Act for
Fiscal Year 2013

April 15, 2014




Office of
Inspector General
Department of the Treasury
Contents




Audit Report....................................................................................................1

    Results in Brief ...............................................................................................1

    Background ...................................................................................................3

    Audit Results .................................................................................................5

        Treasury Was Not in Compliance with IPERA for FY 2013 ..............................5

        Recommendations......................................................................................6

Appendices

Appendix     1:      Objectives, Scope, and Methodology ...........................................               9
Appendix     2:      TIGTA’s Report on IRS’s Compliance with IPERA ..........................                    11
Appendix     3:      Management Response ..............................................................          32
Appendix     4:      Major Contributors to this Report ................................................          35
Appendix     5:      Report Distribution ....................................................................    36

Abbreviations

    AFR                  Agency Financial Report
    DO                   Departmental Offices
    EITC                 Earned Income Tax Credit
    FY                   Fiscal Year
    IPERA                Improper Payments Elimination and Recovery Act of 2010
    IPIA                 Improper Payments Information Act of 2002
    IRS                  Internal Revenue Service
    OIG                  Office of Inspector General
    OMB                  Office of Management and Budget
    RCG                  Risk and Control Group
    TIGTA                Treasury Inspector General for Tax Administration




                         Treasury Was Not in Compliance with IPERA for Fiscal Year 2013 (OIG-14-032)          Page i
                                                                                          Audit
OIG
The Department of the Treasury
                                                                                          Report
Office of Inspector General



                        April 15, 2014

                        Nani A. Coloretti
                        Assistant Secretary for Management

                        This report presents the results of our audit of the Department of
                        the Treasury’s (Treasury) compliance with the Improper Payments
                        Elimination and Recovery Act of 2010 (IPERA) 1 for fiscal year (FY)
                        2013. IPERA was enacted to help Federal agencies strengthen the
                        framework for reducing and reporting improper payments. The
                        objective of our audit was to assess and report on Treasury’s
                        compliance with improper payment requirements set forth in IPERA.
                        Appendix 1 provides more detail of the objective, scope, and
                        methodology of our audit.

                        This report also incorporates the results of the Treasury Inspector
                        General for Tax Administration’s (TIGTA) assessment of the
                        Internal Revenue Service’s (IRS) compliance with IPERA. TIGTA
                        issued its report on March 31, 2014, which is included as appendix
                        2 of this report. The results of our audit, insofar as they relate to
                        IRS, are based solely on TIGTA’s report.


Results in Brief
                        We determined that Treasury was not in compliance with IPERA for
                        FY 2013 due to IRS’s Earned Income Tax Credit (EITC) deficiencies
                        reported by TIGTA. Specifically, IRS did not publish annual EITC
                        improper payment reduction targets and has not reported an
                        improper payment rate of less than 10 percent.

                        TIGTA also reported that (1) improper payment risk assessments
                        may not provide a reliable assessment of the risk of improper
                        payments in tax administration, and (2) Federal courts have ruled
                        that IRS does not have regulation authority over paid tax return


1
    Pub. L. No. 111-204, 124 Stat. (July 22, 2010)


                        Treasury Was Not in Compliance with IPERA for Fiscal Year 2013 (OIG-14-032)   Page 1
preparers, which was previously cited as IRS’s most promising
initiative to reduce EITC improper payments.

This is the third consecutive year we have determined that
Treasury is not in compliance with IPERA due to EITC deficiencies.

In this report, we are reaffirming our prior year recommendation
that the Assistant Secretary for Management ensure that Treasury
submit a comprehensive plan to Congress that includes a
description of the corrective actions Treasury will take to remediate
non-compliance with IPERA due to IRS’s EITC deficiencies. We are
also recommending that the Secretary of the Treasury or designee,
in no later than 30 days, submit to Congress either reauthorization
proposals or proposed statutory changes necessary to bring the
EITC program into compliance with IPERA.

In a written response, management agreed with our
recommendation to ensure that a comprehensive plan is submitted
to Congress which includes a description of the corrective actions
Treasury will take to remediate its IPERA non-compliance. The
response noted that management has been working with the Office
of Management and Budget (OMB) with respect to developing
supplemental measures to address the EITC deficiencies.
Management also expressed agreement with our second
recommendation regarding the submission to Congress either
reauthorization proposals or proposed statutory changes to bring
the EITC program into compliance with IPERA but noted that IRS
will not be ready to submit a complete corrective action plan within
the required 30 days. Management provided an implementation
date of May 15, 2015, to address this recommendation which
exceeds IPERA’s 30-day statutory deadline. We have summarized
and evaluated management’s response in the recommendations
section of this report. Management’s complete response is
provided in appendix 3.




Treasury Was Not in Compliance with IPERA for Fiscal Year 2013 (OIG-14-032)   Page 2
Background
                        Improper Payments Elimination and Recovery Act of 2010

                        Under the Improper Payments Information Act of 2002 (IPIA), 2
                        Federal agencies were required to review and identify programs and
                        activities susceptible to improper payments on an annual basis and
                        report estimates of improper payments to Congress along with
                        actions to reduce estimated improper payments that exceeded $10
                        million. IPERA amended IPIA by strengthening agencies’ program
                        reviews and reporting requirements. IPERA expands the types of
                        payments that should be reviewed and establishes the requirement
                        for agencies to conduct recovery audits if cost-effective.

                        IPERA also requires the Inspectors General to report on respective
                        agencies’ compliance with IPERA each fiscal year.

                        OMB’s “Requirements for Effective Measurement and Remediation
                        of Improper Payments,” of OMB Circular No. A-123,
                        Management’s Responsibility for Internal Control, (OMB Circular
                        No. A-123, Appendix C) was revised to provide agencies guidance
                        on implementing the requirements of IPERA. 3 This guidance
                        provides for (1) identifying and reporting on improper payments and
                        (2) performing and reporting on payment recapture audits.

                        To determine compliance with IPERA and OMB guidance, we are
                        required to review the Agency Financial Report (AFR) and any
                        accompanying information to assess whether Treasury has:

                            •   published an AFR for the most recent fiscal year and posted
                                that report and any accompanying materials required by
                                OMB on Treasury’s website;
                            •   conducted a program specific risk assessment for each
                                program or activity that conforms with 31 U.S.C. §3321,2 if
                                required;



2
    Pub. L. No. 107-300, 116 Stat. (Nov. 26, 2002)
3
 OMB M-11-16, Issuance of Revised Parts I and II to Appendix C of OMB Circular A-123, (April 14,
2011)


                        Treasury Was Not in Compliance with IPERA for Fiscal Year 2013 (OIG-14-032)   Page 3
    •   published improper payment estimates for all programs and
        activities identified as susceptible to significant improper
        payments under its risk assessment, if required;
    •   published programmatic corrective action plans in the AFR, if
        required;
    •   published, and met, annual reduction targets for each
        program assessed to be at risk and measured for improper
        payments;
    •   reported a gross improper payment rate of less than 10
        percent for each program and activity for which an improper
        payment estimate was obtained and published in the AFR;
        and
    •   reported information on its efforts to recapture improper
        payments.

Treasury’s Improper Payment Risk Assessment

Treasury’s Risk and Control Group (RCG), under the Deputy Chief
Financial Officer, issued Treasury-Wide Guidance for the FY 2013
Implementation of Circular A-123, Appendix C, Requirements for
the Effective Measurement and Remediation of Improper Payments
(Treasury’s IPERA Guidance) to all Treasury bureaus and
Departmental Offices (DO) subcomponents (hereafter we refer to
bureaus and DO subcomponents collectively as “components”).
RCG identified the programs for which components were required
to assess the risk of improper payment. Treasury components used
the “Improper Payments Elimination and Recovery Risk Assessment
Questionnaire for FY 2013” developed by RCG to assess the level
of risk for each program identified. Each component was to provide
the results and documentation for all risk assessments to RCG. For
any program identified as having a high risk for improper payment,
the responsible component was also required to provide the
following information for inclusion in the AFR:

    •   The rate and amount of improper payment;
    •   The root causes of improper payments;
    •   Actions taken to address the root causes;
    •   Annual improper payment reduction targets; and
    •   A discussion of any limitations to the component’s ability to
        reduce improper payments.



Treasury Was Not in Compliance with IPERA for Fiscal Year 2013 (OIG-14-032)   Page 4
                For FY 2013, Treasury identified the EITC as its only high risk
                program. IRS estimated that 22 to 26 percent of EITC payments
                were issued improperly and estimated the value of these improper
                payments to be between $13.3 and $15.6 billion.

                Payment Recapture Audits

                IPERA requires agencies to conduct recovery audits (also referred
                to as payment recapture audits) for each program and activity that
                expends $1 million or more annually, if conducting such audits
                would be cost-effective. A payment recapture audit is a review and
                analysis of an agency’s or program’s accounting and financial
                records, supporting documentation, and other pertinent information
                supporting its payments, that is specifically designed to identify
                overpayments. Agencies are required to have a cost-effective
                program of internal control to prevent, detect, and recover
                overpayments.

                Treasury’s IPERA Guidance requires each component to complete a
                worksheet providing a consistent reporting format that includes
                information on the component’s payment recapture audits. The
                worksheets are to be submitted to RCG for review and the results
                are then consolidated and reported in the AFR.


Audit Results

                Treasury Was Not in Compliance with IPERA for FY 2013

                We determined that Treasury was not in compliance with IPERA for
                FY 2013 due to IRS’s EITC deficiencies reported by TIGTA.
                Specifically, IRS did not publish annual EITC improper payment
                reduction targets and has not reported an improper payment rate of
                less than 10 percent. This is the third consecutive year we have
                determined that Treasury is not in compliance with IPERA due to
                EITC deficiencies.

                As a result of our determination of Treasury’s noncompliance with
                IPERA for FY 2011, Treasury submitted a plan to Congress
                describing the actions that it intended to take to come into
                compliance, as required by IPERA and OMB Circular No. A-123,



                Treasury Was Not in Compliance with IPERA for Fiscal Year 2013 (OIG-14-032)   Page 5
                     Appendix C. However, the plan did not address the non-compliance
                     with IPERA due to EITC deficiencies. The plan only addressed
                     deficiencies associated with its reporting on payment recapture
                     audits (which were also identified in the FY 2011 IPERA report 4).
                     Treasury officials believed that by reporting corrective actions
                     related to EITC deficiencies in the AFR, they satisfied the reporting
                     requirements of IPERA and OMB Circular No. A-123, Appendix C.
                     Based on discussions with OMB staff, we determined that this did
                     not satisfy Treasury’s IPERA reporting requirement.

                     Treasury has not yet submitted to Congress a complete corrective
                     action plan addressing EITC deficiencies. Treasury and IRS
                     management are in discussions with OMB to develop supplemental
                     reporting measures that would be appropriate to gauge the impact
                     of EITC compliance and outreach efforts in lieu of developing error
                     reduction targets.

                     Since Treasury has not been in compliance with IPERA for 3
                     consecutive fiscal years for the same program, IPERA requires that,
                     not later than 30 days of the determination of non-compliance, the
                     Secretary of the Treasury must submit to Congress
                     (1) reauthorization proposals for the EITC program; or (2) proposed
                     statutory changes necessary to bring the EITC program into
                     compliance.

                     Recommendations

                  1. We reaffirm our prior year recommendation that the Assistant
                     Secretary for Management ensure that Treasury submit a
                     comprehensive plan to Congress that includes a description of the
                     corrective actions Treasury will take to remediate non-compliance
                     with IPERA due to IRS’s EITC deficiencies.

                     Management Response

                     Management agreed with our recommendation and stated that
                     Treasury has been working with OMB with regard to the EITC.
                     Management noted it received OMB’s formal letter 1) approving
                     that developing supplemental measures is appropriate to gauge the

4
 The Department of the Treasury Was Not in Compliance With the Improper Payments Elimination and
Recovery Act for Fiscal Year 2011 (OIG-12-044; issued March 15, 2012)


                     Treasury Was Not in Compliance with IPERA for Fiscal Year 2013 (OIG-14-032)   Page 6
   impact of EITC compliance and outreach efforts in lieu of
   developing error reduction targets, and 2) agreeing on what non-
   EITC refunds are required under IPERA versus what IRS will
   continue to report as tax gap reduction efforts. Management
   pointed out that the OMB letter states that by establishing
   supplemental measures and reporting them along with the annual
   reported improper payment estimates, Treasury will fulfill specific
   requirements found in Executive Order 13520 and the Improper
   Payments Elimination and Recovery Improvement Act of 2012.
   According to management, IRS is continuing to develop these
   measures, and will be meeting with OMB to obtain their
   concurrence and provide the measures to Treasury, along with the
   annual EITC error estimates for reporting in the FY 2014 AFR.
   Beyond these measures, corrective actions are currently in place to
   reduce the improper payment rate. However, numerous barriers –
   including authentication errors, verification errors, the complexity
   of the tax law, and the structure of the EITC – continue to provide
   challenges with respect to the reduction of improper payments.
   Management’s response is provided in appendix 3.

   OIG Comment

   Management’s response meets the intent of our recommendation.

2. We recommend that the Secretary of the Treasury or designee, in
   no later than 30 days, submit to Congress either reauthorization
   proposals or proposed statutory changes necessary to bring the
   EITC program into compliance with IPERA.

   Management Response
   Management responded that it agreed with the spirit of our
   recommendation but that IRS will not be ready to submit a
   complete corrective action plan within 30 days. Management noted
   that due to the complexity of the EITC and its impact on a
   significant segment of the taxpaying public, it believes that any
   proposals put forward must be comprehensive, well thought out,
   and focused on achieving the dual goals of maximizing participation
   in the program and reducing, to the greatest extent possible,
   improper payments associated with the credit. Management
   indicated an implementation date of May 15, 2015 for its




   Treasury Was Not in Compliance with IPERA for Fiscal Year 2013 (OIG-14-032)   Page 7
submission of any reauthorization proposals or statutory changes
to bring the EITC program into compliance with IPERA.

Management also stated that it has proposed in the General
Explanations of the Administration's Fiscal Year 2015 Revenue
Proposals correctible error authority. According to management,
this authority will permit IRS to correct errors in certain narrow
circumstances providing an appropriate balance between using IRS
resources efficiently and effectively and maintaining the procedural
protections available to taxpayers. Management noted that IRS is
exploring new approaches such as the simplification of EITC
eligibility criteria and the identification of more efficient means to
distinguish valid claims from over claims. Management’s response
is provided in appendix 3.

OIG Comment

We acknowledge management’s agreement with our
recommendation. However, the submission of either
reauthorization proposals or proposed statutory changes by
management’s planned corrective action date of May 15, 2015,
exceeds IPERA’s 30 day statutory deadline. While we recognize
and appreciate the challenges involved in this process, we reaffirm
our recommendation and will continue to monitor management’s
actions going forward.

                                 ******

We appreciate the courtesies and cooperation extended to our staff
during this audit. Should you have any questions, you may contact
me at (202) 927-5400, or Donna F. Joseph, Deputy Assistant
Inspector General for Financial Management and Information
Technology Audit at (202) 927-5784. Major contributors to this
report are listed in appendix 4.

/s/

Marla A. Freedman
Assistant Inspector General for Audit




Treasury Was Not in Compliance with IPERA for Fiscal Year 2013 (OIG-14-032)   Page 8
Appendix 1
Objectives, Scope and Methodology




The Improper Payments Elimination and Recovery Act of 2010
(IPERA) requires that we conduct an audit of the Department of the
Treasury’s (Treasury) compliance with requirements set forth in
IPERA for identifying and reducing improper payments in its
programs and activities. The objective of this audit was to
determine Treasury’s compliance with IPERA for fiscal year 2013.
Our audit scope did not include the review of programs and
activities administered by the Internal Revenue Service (IRS). The
Treasury Inspector General for Tax Administration (TIGTA) is
responsible for the audit of IRS’s compliance with IPERA. TIGTA’s
scope included an assessment of the Earned Income Credit (EITC)
information that IRS provided for inclusion in Treasury’s Agency
Financial Report (AFR) and a review of IRS’s progress on previous
recommendations. EITC was the only program identified by the IRS
for improper payment reporting.

To accomplish our objective, we reviewed applicable laws,
guidance issued by the Office of Management and Budget, and
Treasury-wide guidance related to IPERA; reviewed the fiscal year
2013 AFR to determine if Treasury complied with the reporting
requirements of IPERA; interviewed key Departmental Offices and
component entities’ personnel; and performed testing of Treasury’s
risk assessment and payment recapture audit program.

To review Treasury’s risk assessment process, we randomly
selected a sample of 21 of 40 non-IRS programs identified by
Treasury for risk assessment. To determine the reasonableness and
accuracy of the information reported and compliance with the
applicable guidance for the sample, we reviewed the program risk
assessments and conducted interviews of personnel involved in
their preparation and review.

To review the payment recapture audit program, we randomly
selected a sample of 11 of 14 non-IRS components. To determine
the reasonableness and accuracy of the information reported, and
compliance with the applicable guidance for the sample, we
reviewed the components’ submissions and conducted interviews
with component personnel, as well as reviewed supporting
documentation.




Treasury Was Not in Compliance with IPERA for Fiscal Year 2013 (OIG-14-032)   Page 9
Appendix 1
Objectives, Scope and Methodology




We conducted our fieldwork in Washington, DC, from September
2013 to March 2014.

We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




Treasury Was Not in Compliance with IPERA for Fiscal Year 2013 (OIG-14-032)   Page 10
Appendix 2
TIGTA’s Report on IRS’s Compliance with IPERA




Treasury Was Not in Compliance with IPERA for Fiscal Year 2013 (OIG-14-032)   Page 11
Appendix 2
TIGTA’s Report on IRS’s Compliance with IPERA




Treasury Was Not in Compliance with IPERA for Fiscal Year 2013 (OIG-14-032)   Page 12
Appendix 2
TIGTA’s Report on IRS’s Compliance with IPERA




Treasury Was Not in Compliance with IPERA for Fiscal Year 2013 (OIG-14-032)   Page 13
Appendix 2
TIGTA’s Report on IRS’s Compliance with IPERA




Treasury Was Not in Compliance with IPERA for Fiscal Year 2013 (OIG-14-032)   Page 14
Appendix 2
TIGTA’s Report on IRS’s Compliance with IPERA




Treasury Was Not in Compliance with IPERA for Fiscal Year 2013 (OIG-14-032)   Page 15
Appendix 2
TIGTA’s Report on IRS’s Compliance with IPERA




Treasury Was Not in Compliance with IPERA for Fiscal Year 2013 (OIG-14-032)   Page 16
Appendix 2
TIGTA’s Report on IRS’s Compliance with IPERA




Treasury Was Not in Compliance with IPERA for Fiscal Year 2013 (OIG-14-032)   Page 17
Appendix 2
TIGTA’s Report on IRS’s Compliance with IPERA




Treasury Was Not in Compliance with IPERA for Fiscal Year 2013 (OIG-14-032)   Page 18
Appendix 2
TIGTA’s Report on IRS’s Compliance with IPERA




Treasury Was Not in Compliance with IPERA for Fiscal Year 2013 (OIG-14-032)   Page 19
Appendix 2
TIGTA’s Report on IRS’s Compliance with IPERA




Treasury Was Not in Compliance with IPERA for Fiscal Year 2013 (OIG-14-032)   Page 20
Appendix 2
TIGTA’s Report on IRS’s Compliance with IPERA




Treasury Was Not in Compliance with IPERA for Fiscal Year 2013 (OIG-14-032)   Page 21
Appendix 2
TIGTA’s Report on IRS’s Compliance with IPERA




Treasury Was Not in Compliance with IPERA for Fiscal Year 2013 (OIG-14-032)   Page 22
Appendix 2
TIGTA’s Report on IRS’s Compliance with IPERA




Treasury Was Not in Compliance with IPERA for Fiscal Year 2013 (OIG-14-032)   Page 23
Appendix 2
TIGTA’s Report on IRS’s Compliance with IPERA




Treasury Was Not in Compliance with IPERA for Fiscal Year 2013 (OIG-14-032)   Page 24
Appendix 2
TIGTA’s Report on IRS’s Compliance with IPERA




Treasury Was Not in Compliance with IPERA for Fiscal Year 2013 (OIG-14-032)   Page 25
Appendix 2
TIGTA’s Report on IRS’s Compliance with IPERA




Treasury Was Not in Compliance with IPERA for Fiscal Year 2013 (OIG-14-032)   Page 26
Appendix 2
TIGTA’s Report on IRS’s Compliance with IPERA




Treasury Was Not in Compliance with IPERA for Fiscal Year 2013 (OIG-14-032)   Page 27
Appendix 2
TIGTA’s Report on IRS’s Compliance with IPERA




Treasury Was Not in Compliance with IPERA for Fiscal Year 2013 (OIG-14-032)   Page 28
Appendix 2
TIGTA’s Report on IRS’s Compliance with IPERA




Treasury Was Not in Compliance with IPERA for Fiscal Year 2013 (OIG-14-032)   Page 29
Appendix 2
TIGTA’s Report on IRS’s Compliance with IPERA




Treasury Was Not in Compliance with IPERA for Fiscal Year 2013 (OIG-14-032)   Page 30
Appendix 2
TIGTA’s Report on IRS’s Compliance with IPERA




Treasury Was Not in Compliance with IPERA for Fiscal Year 2013 (OIG-14-032)   Page 31
Appendix 3
Management Response




Treasury Was Not in Compliance with IPERA for Fiscal Year 2013 (OIG-14-032)   Page 32
Appendix 3
Management Response




Treasury Was Not in Compliance with IPERA for Fiscal Year 2013 (OIG-14-032)   Page 33
Appendix 3
Management Response




Treasury Was Not in Compliance with IPERA for Fiscal Year 2013 (OIG-14-032)   Page 34
Appendix 4
Major Contributors to this Report




Donna F. Joseph, Deputy Assistant Inspector General for Financial
  Management and Information Technology Audit
Michael Fitzgerald, Director, Financial Audit
Catherine Yi, Audit Manager
Myung Han, Audit Manager
Kenneth Harness, Auditor-in-Charge
Rufus Etienne, Senior Auditor
Robert Hong, Auditor
Vicki Preston, Referencer
John Tomasetti, Referencer




Treasury Was Not in Compliance with IPERA for Fiscal Year 2013 (OIG-14-032)   Page 35
Appendix 5
Report Distribution




The Department of the Treasury

    Secretary of the Treasury
    Deputy Secretary of the Treasury
    Assistant Secretary for Management
    Deputy Chief Financial Officer
    Director, Risk and Control Group

Office of Management and Budget

    Controller, Office of Federal Financial Management
    OIG Budget Examiner

United States Senate

    Chairman and Ranking Member
    Committee on Homeland Security and Governmental Affairs

U.S. House of Representative

    Chairman and Ranking Member
    Committee on Oversight and Government Reform

U.S. Government Accountability Office

    Comptroller General of the United States




Treasury Was Not in Compliance with IPERA for Fiscal Year 2013 (OIG-14-032)   Page 36
